Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




          Hospital Closure
               2000




                    JANET REHNQUIST
                     Inspector General

                        JUNE 2002
                      OEI-04-02-00010
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                   EXECUTIVE SUMMARY

PURPOSE

          To describe the extent, characteristics, reasons for, and impact of hospital closures in 2000.


BACKGROUND

          The closure of hospitals in past years has generated public and congressional concern. We
          released a report in May 1989 describing the nationwide phenomenon of hospital closures in
          1987. Subsequently, we issued annual reports for hospital closures from 1988 through 1999.

          The findings from all the OIG studies of hospital closures are similar. The hospitals that closed
          were smaller and had lower occupancy rates than the national averages. When the hospitals
          closed, few patients were affected. Most patients could get medical care nearby.


FINDINGS

          Our inspection of hospital closures in 2000 produced findings similar to those previously
          reported for 1987-1999.

          •	         Sixty-four general, short-term, acute care hospitals closed in 2000 -- 1.4 percent of all
                     hospitals.

          •	         The same number of hospitals closed in 2000 as in 1999; however, 29 hospitals
                     opened or reopened in 2000, seven more than in 1999.

          •	         Twenty-two of the hospitals that closed were located in rural areas and 42 were
                     located in urban areas.

          •	         The average size of rural hospitals that closed was similar to that of the national
                     average. Urban hospitals that closed were smaller in size when compared to the
                     national average.

                             Rural hospitals that closed had an average of 64 beds as compared to an
                             average of 65 beds for all rural hospitals nationally.



Hospital Closure: 2000                                   1                                         OEI-04-02-00010
                             Urban hospitals that closed had an average of 161 beds as compared to an
                             average of 231 beds for all urban hospitals nationally.

          •	         Occupancy rates for closed rural and urban hospitals were lower on average than the
                     national averages.

                             Rural hospitals that closed had an average occupancy rate of 35.1 percent,
                             slightly lower than the average of 38.6 percent for all rural hospitals nationally.
                             The average daily census in the year prior to closure was about 23 patients.

                             Urban hospitals that closed had an average occupancy rate of 43 percent
                             compared to an average of 58 percent for all urban hospitals nationally. The
                             average daily census in the year prior to closure was about 69 patients.

          •	         Medicare utilization in closed rural hospitals was lower than the national average. In
                     urban hospitals that closed, Medicare utilization was higher than the national average.

                             In rural areas, the average Medicare utilization among hospitals that closed was
                             52.9 percent compared to an average of 56.1 percent for all rural hospitals
                             nationally. About 12 Medicare patients were in the hospital on an average day
                             in the year prior to closure.

                             In urban areas, the average Medicare utilization among hospitals that closed
                             was 46.5 percent compared to an average of 39.9 percent for all urban
                             hospitals nationally. About 32 Medicare patients were in the hospital on an
                             average day in the year prior to closure.

          •	         Medicaid utilization in closed rural hospitals was higher than the national average. In
                     urban hospitals that closed, Medicaid utilization was lower than the national average.

                             In rural areas, the average Medicaid utilization among hospitals that closed was
                             17 percent compared to an average of 12.7 percent for all rural hospitals
                             nationally. About four Medicaid patients were in the hospital on an average
                             day in the year prior to closure.

                             In urban areas, the average Medicaid utilization among hospitals that closed
                             was 10.4 percent compared to an average of 13.7 percent for all urban
                             hospitals nationally. About seven Medicaid patients were in the hospital on an
                             average day in the year prior to closure.



Hospital Closure: 2000                                    2                                          OEI-04-02-00010
          •	         Many factors caused hospitals to close. The most common reason reported for closure
                     was financial problems brought on by factors such as low occupancy and competition.
                     Hospital reorganizations and mergers accounted for 19 of the closures. Hospital
                     administrators, former owners, general counsel, city managers, and others provided the
                     reasons for closure.

          •	         Officials in only 2 of the 64 hospitals that closed included Medicare and Medicaid
                     reimbursement reductions as a reason for closure. Neither, however claimed it to be
                     the sole reason.

          •	         Emergency and inpatient medical care was generally available within 10 miles of a
                     closed hospital.

          •	         At the time of our inspection, 20 of the 64 closed hospital facilities (31 percent) were
                     being used for health-related services such as outpatient facilities, health clinics or
                     rehabilitation facilities. Also, plans were being made to use 4 of the remaining 44
                     closed hospitals for health-related services.




Hospital Closure: 2000                                   3                                         OEI-04-02-00010
                                        TABLE OF CONTENTS

                                                                                                                                  PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Extent and Characteristics of Closed Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                     How Many Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                     The Effect on Bed Supply . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                     Where They Were . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                     What They Were Like . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Reasons for Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Impact of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


                     How Many Patients Were Affected . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


                     What Inpatient Care and Emergency Services Are Available . . . . . . . . . . . . . . . . . . 13


                     What the Building Is Used for Now . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES

          A. Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          B. Number of Hospital Closures by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          C. Hospital Closures by Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          D. Hospital Openings and Reopenings by Name and Location . . . . . . . . . . . . . . . . . . . . . . 20


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




Hospital Closure: 2000                                               4                                                      OEI-04-02-00010
                                       INTRODUCTION


PURPOSE

          To describe the extent, characteristics, reasons for, and impact of hospital closures in 2000.


BACKGROUND

          In the late 1980s, closure of general, acute care hospitals generated public and congressional
          concern. Numerous questions were raised about the impact of hospital closures in the United
          States, as well as implications for public policy. A number of studies predicted that more
          hospitals would close in coming years.

          In response to these concerns, the Office of Inspector General released a report in May 1989
          describing the phenomenon of hospital closure during 1987 in the United States. We found that
          the hospitals that closed were small and their closing did not severely affect access to care.
          Many users of our 1987 hospital closure study encouraged us to continue year-by-year
          analyses of the phenomenon to detect differences in the rate of hospital closure, and in the
          characteristics and circumstances of hospitals that close.

          Similar inspections on hospital closures in 1988 through 1994 showed a downward trend in the
          number of closures. Beginning in 1995, the number of hospital closures has generally
          increased.




Hospital Closure: 2000                                5                                         OEI-04-02-00010
          The findings from the 1987 through 1999 inspections were similar. The hospitals that closed
          were small and had low occupancy rates. When the hospitals closed, few patients were
          affected. Most could get medical care nearby.


METHODOLOGY

          We examined hospitals that closed in calendar year 2000. For purposes of this study, we use
          the following definitions.

                     Hospital: A facility that provides general, short-term, acute medical and surgical
                     inpatient care.

                     Closed Hospital: A facility that stopped providing general, short-term, acute inpatient
                     care in 2000. We did not consider a hospital closed if it:

                             •	      Merged with or was sold to another hospital but the physical plant
                                     continued to provide inpatient acute care,
                             •       Converted to critical access status, or
                             •       Both closed and reopened in 2000 in the same physical plant.

          To determine the extent, reasons for, and impact of hospital closures, we obtained information
          from Centers for Medicare and Medicaid Services (CMS) data bases, State licensing and
          certification agencies, State health planning agencies, State hospital associations, officials
          associated with closed and nearby hospitals, and local public officials.

          We obtained information on the characteristics of all hospitals, including those that closed in
          2000 from the Hospital Cost Report Information System (HCRIS) maintained by CMS.

          Appendix A describes our methodology in further detail.
                                   ____     ____     ____       ____

          We conducted our inspection between September 2001 and March 2002. We conducted this
          inspection in accordance with the Quality Standards for Inspections issued by the President’s
          Council on Integrity and Efficiency.




Hospital Closure: 2000                                  6                                        OEI-04-02-00010
                                                FINDINGS

          Our analysis shows that:

          •	         Sixty-four general, short-term, acute care hospitals closed in 2000 -- 1.4 percent of all
                     hospitals.

          •	         The same number of hospitals closed in 2000 as in 1999; however, 29 hospitals
                     opened or reopened, seven more than in 1999.

          •	         Rural hospitals that closed were similar in size and occupancy when compared to the
                     national average. Urban hospitals were generally smaller and had lower occupancy
                     when compared to the national average.

          •	         The reasons for and impact of 2000 closures were similar to those of the 1999
                     closures.

          •	         Although residents of a few communities had to travel greater distances for hospital
                     care, most had emergency and inpatient medical care available within 10 miles of a
                     closed hospital.


Extent and characteristics of closed hospitals

How many closed

          In 2000, there were 4,657 general, short-term, acute care hospitals in the United States entered
          on the Centers for Medicare and Medicaid Services (CMS) Hospital Cost Report Information
          System (HCRIS) data base as participating in the Medicare program. Sixty-four hospitals
          closed in 2000 -- 1.4 percent of all hospitals nationally.


                    Number of hospitals in the U.S.                          4,657


                    Number of hospitals that closed in 2000                     64        1.4%



          While 64 hospitals closed in 2000, 24 new hospitals opened and 5 previously closed hospitals
          reopened. In comparison, 64 hospitals closed in 1999, 20 new hospitals opened and 2
          previously closed hospitals reopened. The net effect was a decrease in 2000 hospital closures
          (35 hospitals) when compared to the 1999 closures (42 hospitals).



Hospital Closure: 2000                                   7                                        OEI-04-02-00010
The effect on bed supply

          Closure of the 64 general, acute care hospitals reduced 2000 inpatient bed supply by 8,175
          beds, or 1.1 percent.


                    Number of inpatient beds in the U.S.                 728,902


                    Inpatient beds in hospitals that closed in 2000          8,175       1.1%



          The 29 hospital openings and reopenings, however, added 1,590 beds and 217 beds
          respectively. Therefore, the net reduction to the 2000 inpatient bed supply was 6,368 beds. In
          comparison, the net reduction to the 1999 inpatient bed supply was 3,376 beds.

Where they were

          The closed hospitals were located in 28 States. California had the greatest number of closures
          (8), followed by Ohio (7), Texas (6), Michigan (5), Pennsylvania (4), Missouri (3), Tennessee
          (3), and Wisconsin (3). The remaining 20 States had 1 or 2 closures each. Appendix B lists
          the number of hospital closures by State. Appendix C lists the closures by location.

          Twenty-two of the closed hospitals were located in rural areas and 42 were located in urban
          areas.


                                                           RURAL                     URBAN

            Hospitals in the U.S.:                       2,093                       2,564

            Closed in 2000                                  22        1.1%             42    1.6%


What they were like

          Size: Combined, rural and urban hospitals that closed in 2000 were smaller, on average, than
          the national average size. The average number of beds for hospitals nationwide is 157. About
          75 percent of the hospitals that closed had fewer beds than the national average. Furthermore,
          over half (56 percent) of the hospitals that closed had 100 beds or fewer. In contrast, 25
          percent of the closed hospitals had more beds than the national average.




Hospital Closure: 2000                                  8                                        OEI-04-02-00010
                                     SIZE OF CLOSED HOSPITALS

                                                    Number of Closed Hospitals

                 Number of Beds           Rural          Urban           Total         Percent

                          0 - 30             6              2              8            13%

                          31 - 50           10              5             15            23%

                         51 - 100            2             11             13            20%

                         101 - 150           0             11             11            17%

                         151 - 200           3              5              8            13%

                         201 - 300           1              4              5             8%

                          301 >              0              4              4             6%

                          Totals            22             42             64            100%


          Rural hospitals that closed, however, where comparable in size to the national average for rural
          hospitals. They had an average of 64 beds compared to an average of 65 beds for all rural
          hospitals nationally. Urban hospitals that closed were smaller than the national average. They
          had an average of 161 beds compared to an average of 231 beds for all urban hospitals
          nationally. Four urban hospitals each had over 300 beds. They averaged 619 beds with the
          largest, located in Memphis, Tennessee, having over 1,100 beds.




Hospital Closure: 2000                               9                                         OEI-04-02-00010
          Occupancy: Occupancy rates for closed rural and urban hospitals were lower on average
          than the national averages.1

          Rural hospitals that closed had an average occupancy rate of 35.1 percent, slightly lower than
          the average of 38.6 percent for all rural hospitals nationally. The average daily census in the
          year prior to closure was about 23 patients versus the national average of 25 patients.

          Urban hospitals that closed had an average occupancy rate of 43 percent compared to an
          average of 58 percent for all urban hospitals nationally. The average daily census in the year
          prior to closure was about 69 patients versus the national average of 127 patients.




          Medicare Utilization: The average Medicare utilization among rural hospitals that closed was
          lower than the national average. Urban hospitals that closed, however, had a higher Medicare
          utilization than the national average.2

          In rural areas, the average Medicare utilization among hospitals that closed was 52.9 percent
          compared to an average of 56.1 percent for all rural hospitals nationally. About 12 Medicare
          patients were in the hospital on an average day in the year prior to closure.




          1
           Hospital occupancy rate is defined as the actual number of patient days divided by the total bed days
available. National average occupancy rate is defined as the sum of all hospitals’ occupancy rates, divided by the
number of hospitals.

          2
           Average Medicare utilization in closed hospitals is defined as the percent of Medicare patient days
compared to the total patient days for each hospital, summed and divided by the number of hospitals. National
average Medicare utilization is the percent of Medicare utilization of each hospital, summed and divided by the total
number of hospitals.

Hospital Closure: 2000                                         10                                                    OEI-04-02-00010
          In urban areas, the average Medicare utilization among hospitals that closed was 46.5 percent
          compared to an average of 39.9 percent for all urban hospitals nationally. About 32 Medicare
          patients were in the hospital on an average day in the year prior to closure.




          Medicaid Utilization: The average Medicaid utilization among rural hospitals that closed was
          higher than the national average. In contrast, the Medicaid utilization for urban hospitals that
          closed was slightly lower than the national average.3

          In rural areas, the average Medicaid utilization among hospitals that closed was 17 percent
          compared to an average of 12.7 percent for all rural hospitals nationally. About four Medicaid
          patients were in the hospital on an average day in the year prior to closure.

          In urban areas, the average Medicaid utilization among hospitals that closed was 10.4 percent
          compared to an average of 13.7 percent for all urban hospitals nationally. About seven
          Medicaid patients were in the hospital on an average day in the year prior to closure.




          3
              Medicaid utilization is calculated in the same way as Medicare utilization.

Hospital Closure: 2000                                            11                          OEI-04-02-00010
Reasons for hospital closure

          The officials we interviewed reported many reasons for hospital closure. The most often
          reported reason was financial problems resulting from factors such as low occupancy and
          competition. Hospital reorganizations and mergers accounted for 19 of the hospital closures.

          Officials in only 2 of the 64 hospitals that closed included Medicare and Medicaid
          reimbursement reductions as a reason for closure. Neither, however claimed it to be the sole
          reason. For example, one hospital in California reported to have closed based on competition
          and an outdated building in addition to insufficient Medicare/Medicaid reimbursement.

          Fourteen hospitals closed in order to open thirteen new facilities. For example, in Idaho, two
          hospitals under the same ownership were closed and replaced by one new centrally located
          hospital. The remaining 12 facilities closed their old locations and opened new upgraded
          hospitals.


Impact of hospital closures

          In communities where hospitals closed in 2000, we determined the

          •          number of patients affected by closure of hospitals,

          •          availability of inpatient care and emergency medical services, and

          •          current use of closed hospital facilities.

How many patients were affected

          For rural hospitals that closed in 2000, the average daily census in the year prior to closure was
          about 23 patients. The urban hospitals that closed had an average daily census of about 69
          patients.


                                        WHEN HOSPITALS CLOSED,
                                   HOW MANY PATIENTS WERE AFFECTED?

                                                                  Rural Hospitals         Urban Hospitals

              Average Number of Beds                                   64.22                   161.01

              Average Occupancy Rate                                  x 35.05%                x 43.02%

              Average Number of Patients                               22.51                    69.26

Hospital Closure: 2000                                    12                                      OEI-04-02-00010
           We analyzed Medicare utilization data to determine the number of elderly patients affected by
           hospital closure in 2000. In rural hospitals that closed, about 12 Medicare patients were in the
           hospital on an average day in the year prior to closure. In the urban hospitals that closed, about
           32 Medicare patients were in the hospital on an average day.


                                        WHEN HOSPITALS CLOSED,
                               HOW MANY MEDICARE PATIENTS WERE AFFECTED?

                                                                            Rural Hospitals                  Urban Hospitals

                 Average Patient Census                                             22.51                             69.26

                 Average Medicare Utilization Rate                                 x 52.93%                         x46.47%

                 Average Number Medicare Patients                                   11.91                             32.19


What inpatient care and emergency services are available

           Inpatient Care: In most communities where a hospital closed in 2000, inpatient hospital care
           was available nearby.4


                                 NEAREST INPATIENT CARE TO CLOSED HOSPITALS

                                                                                       NUMBER OF CLOSED
                                                                                          HOSPITALS

                                  DISTANCE                                         RURAL                           URBAN

                Within 3 Miles                                                11            50.0%             22              52.4%

                4-10 Miles                                                     4            18.2%             16              38.1%

                11-20 Miles                                                    4            18.2%              4              9.5%

                21-30 Miles                                                    2             9.1%              0              0.0%

                More than 30 Miles                                             1             4.5%              0              0.0%

                                       Totals                                 22           100.0%             42              100.0%




           4
                We assessed availability of inpatient medical care in miles from a closed hospital to the nearest inpatient
    facility.
Hospital Closure: 2000                                              13                                                   OEI-04-02-00010
          Rural Areas: Residents in 19 of the 22 rural communities (86 percent) where a hospital closed
          could get inpatient hospital care within 20 miles of the closed hospital. Residents of only one
          community had to travel in excess of 30 miles to receive inpatient care. The residents of Lusk,
          Wyoming had to travel 55 miles.

          Urban Areas: In 38 of the 42 urban communities (90 percent) where a hospital closed in
          2000, residents could get inpatient hospital care within 10 miles of the closed hospital.
          Residents in all 42 urban communities where a hospital closed could get inpatient care within 20
          miles of the closed hospital.

          Emergency Services: When a hospital closed, the community lost not only inpatient beds,
          but also 24-hour emergency services.5

          Rural Areas: In 20 of the 22 rural communities (91 percent) where a hospital closed in 2000,
          emergency care facilities were available within 20 miles of the closed hospital. Of the remaining
          two rural communities where a hospital closed, emergency care for Pomeroy, Ohio was
          available 22 miles from the closed hospital. For Lusk, Wyoming, 24-hour emergency care was
          available 55 miles from the closed hospital.

          Urban Areas: Emergency care facilities were available within 10 miles of the closed hospital in
          38 of the 42 urban communities (90 percent) where a hospital closed in 2000. The remaining
          four urban communities had emergency care within 20 miles.


                         NEAREST EMERGENCY SERVICES TO CLOSED HOSPITALS

                                                                                NUMBER OF CLOSED
                                                                                   HOSPITALS

                             DISTANCE                                        Rural                            Urban

              Within 3 Miles                                           12            54.5%             21         50.0%

              4-10 Miles                                                4            18.2%             17         40.5%

              11-20 Miles                                               4            18.2%              4          9.5%

              21-30 Miles                                               1             4.5%              0          0.0%

              More than 30 Miles                                        1             4.5%              0          0.0%

                                  Totals                               22           100.0%             42         100.0%


          5
          We assessed availability of emergency medical care in miles from a closed hospital to the nearest
emergency facility.
Hospital Closure: 2000                                        14                                                OEI-04-02-00010
What the building is used for now

          At the time of our inspection, 20 of the 64 closed hospital facilities (31 percent) were being
          used for health-related services. For example:

          •	         Niobrara County Hospital in Lusk, Wyoming along with five other closed hospitals now
                     serve as health clinics.

          •	         Community Hospital and Medical Center in Crystal Falls, Michigan along with five
                     other closed hospitals became outpatient facilities.

          •          Doctors Hospital in Tulsa, Oklahoma became a mental health treatment facility.

          •	         St. Jerome Hospital in Batavia, New York became a rehabilitation center and is also
                     used for radiology and lab work.

          Of the closed hospital facilities that were not being used for health-related services, plans were
          being made to use four for health-related services in the future.




Hospital Closure: 2000                                 15                                        OEI-04-02-00010
                                                                                      APPENDIX A


METHODOLOGY

Extent of Hospital Closure

To determine how many hospitals closed in 2000, we compiled Centers for Medicare and Medicaid
Services (CMS) data on terminated hospitals in 2000. To supplement the data, we contacted State
licensing and certification agencies, State hospital associations, and State health planning agencies.
When a closed hospital met the study definition or when questions arose, we surveyed officials
associated with the closed hospitals, officials associated with hospitals nearest to the closed hospital,
and local public officials.

To quantify the number of hospitals in the United States, we used the Hospital Cost Report Information
System (HCRIS) maintained by CMS. We included only general, short-term, acute care hospitals
under Medicare's Prospective Payment System (PPS) in the universe. There were 4,657 hospitals
listed on HCRIS as short-term, acute care, general hospitals for 2000.

Characteristics of Hospital Closure

We used the latest pre-closure cost reports to analyze closed hospital characteristics. For example, if a
hospital closed in May 2000 and its accounting year was on a January-December cycle, we used the
hospital's January 1, 1999 to December 31, 1999 cost report.

Reasons for and Impact of Hospital Closure

To document the reasons for and impact of hospital closure we interviewed knowledgeable officials
related to the closed hospitals. Such officials included:

 •        Former hospital administrators, board members, and/or staff of closed hospitals,

 •        Hospital administrators and/or staff at the nearest hospitals,

 •        Local health and government officials, and

 •        Officials associated with closed hospital parent corporations.

For our “impact” analysis, we determined the distance from a closed hospital to the nearest still-
operating hospital and to emergency service. In addition, we used the HCRIS to determine how many
patients, including Medicare and Medicaid, were displaced by the closures.


Hospital Closure: 2000                                 16                                       OEI-04-02-00010
                                                                         APPENDIX B




                            2000 HOSPITAL CLOSURES - RANKED BY STATE
                    State              Total Closures   Rural Closures   Urban Closures
  California                                 8                1                7
  Ohio                                       7                3                4
  Texas                                      6                1                5
  Michigan                                   5                2                3
  Pennsylvania                               4                0                4
  Missouri                                   3                0                3
  Tennessee                                  3                1                2
  Wisconsin                                  3                0                3
  Iowa                                       2                2                0
  Idaho                                      2                2                0
  Illinois                                   2                0                2
  New Jersey                                 2                0                2
  New York                                   2                1                1
  Arizona                                    1                0                1
  Georgia                                    1                1                0
  Indiana                                    1                0                1
  Maryland                                   1                1                0
  Minnesota                                  1                1                0
  North Carolina                             1                1                0
  Nebraska                                   1                1                0
  Oklahoma                                   1                0                1
  Oregon                                     1                1                0
  South Carolina                             1                0                1
  Utah                                       1                1                0
  Virginia                                   1                0                1
  Washington                                 1                0                1
  West Virginia                              1                1                0
  Wyoming                                    1                1                0
                  28 States                 64               22               42


Hospital Closure: 2000                           17                            OEI-04-02-00010
                                                                   APPENDIX C


                         2000 HOSPITAL CLOSURES BY NAME AND LOCATION

                                                                             Rural/
                         Hospital Name                    City     State     Urban

  Tucson General Hospital                         Tucson           AZ        Urban
  Bay Harbor Hospital                             Harbor City      CA        Urban
  Lindsay District Hospital                       Lindsay          CA        Urban
  Long Beach Community Medical Center             Long Beach       CA        Urban
  Martin Luther Hospital                          Anaheim          CA        Urban
  Mercy American River Hospital                   Carmichael       CA        Urban
  Mission Bay Hospital                            San Diego        CA        Urban
  Scripps Hospital-East County                    El Cajon         CA        Urban
  Sutter Amador Hospital                          Jackson          CA        Rural
  Bulloch Memorial Hospital                       Statesboro       GA        Rural
  Burlington Medical Center                       Burlington       IA        Rural
  Eldora Regional Medical Center                  Eldora           IA        Rural
  Wood River Medical Center-Hailey                Hailey           ID        Rural
  Wood River Medical Center-Sun Valley            Sun Valley       ID        Rural
  Doctor’s Hospital of Hyde Park                  Chicago          IL        Urban
  Wood River Township Hospital                    Wood River       IL        Urban
  Huntington Memorial Hospital                    Huntington       IN        Urban
  Fallston General Hospital                       Fallston         MD        Rural
  Community Hospital and Medical Center           Crystal Falls    MI        Rural
  Greater Detroit Medical Center                  Detroit          MI        Urban
  Mercy Hospital                                  Detroit          MI        Urban
  Oakwood Hospital-Beyer Center                   Ypsilanti        MI        Urban
  Portage Health System                           Hancock          MI        Rural
  Bridges Medical Services                        Ada              MN        Rural
  Bethesda General Hospital                       St. Louis        MO        Urban
  Compton Heights Hospital                        St. Louis        MO        Urban
  Normandy Community Hospital                     St. Louis        MO        Urban
  Hamlet Hospital                                 Hamlet           NC        Rural
  Ogallala Community Hospital                     Ogallala         NE        Rural
  Meridian Health System at Point Pleasant        Point Pleasant   NJ        Urban
  West Jersey Hospital                            Camden           NJ        Urban
  Massapequa General Hospital                     Seaford          NY        Urban
  St. Jerome Hospital                             Batavia          NY        Rural

Hospital Closure: 2000                       18                            OEI-04-02-00010
                                                                   APPENDIX C



            2000 HOSPITAL CLOSURES BY NAME AND LOCATION - CONTINUED

                                                                             Rural/
                         Hospital Name                  City       State     Urban

  Bethesda Oak Hospital                           Cincinnati       OH        Urban
  Franciscan Medical Center                       Dayton           OH        Urban
  Oak Hill Community Medical Center               Oak Hill         OH        Rural
  PHS-Mount Sinai Medical Center                  Cleveland        OH        Urban
  Southern Ohio Medical Center-Mercy              Portsmouth       OH        Rural
  Veterans Memorial Hospital                      Pomeroy          OH        Rural
  Youngstown Osteopathic Hospital                 Youngstown       OH        Urban
  Doctors Hospital                                Tulsa            OK        Urban
  Douglas Community Medical Center                Roseburg         OR        Rural
  Citizens General Hospital                       New Kensington   PA        Urban
  City Avenue Hospital                            Philadelphia     PA        Urban
  John F. Kennedy Memorial Hospital               Philadelphia     PA        Urban
  St. Francis Central Hospital                    Pittsburgh       PA        Urban
  Low Country General Hospital                    Ridgeland        SC        Urban
  Baptist Memorial Hospital-Medical Center        Memphis          TN        Urban
  Centennial Medical Center- Ashland City         Ashland City     TN        Rural
  Nashville Memorial Hospital                     Madison          TN        Urban
  Brook’s Hospital Inc.                           Atlanta          TX        Rural
  Columbia Rosewood Medical Center                Houston          TX        Urban
  Dallas/Fort Worth Medical Center                Grand Prarie     TX        Urban
  Doctors Memorial Hospital                       Tyler            TX        Urban
  Medical Center of Winnie                        Winnie           TX        Urban
  Tri City Health Center                          Dallas           TX        Urban
  Beaver Valley Hospital                          Beaver           UT        Rural
  Bon Secours Stuart Circle Hospital              Richmond         VA        Urban
  Pugent Sound Hospital                           Tacoma           WA        Urban
  Northwest General Hospital                      Milwaukee        WI        Urban
  St. Catherines Hospital                         Kenosha          WI        Urban
  Two Rivers Community Hospital                   Two Rivers       WI        Urban
  Man Appalachian Regional Hospital               Man              WV        Rural
  Niobrara County Hospital                        Lusk             WY        Rural



Hospital Closure: 2000                       19                            OEI-04-02-00010
                                                                     APPENDIX D



        2000 HOSPITAL OPENINGS AND REOPENINGS BY NAME AND LOCATION

                                                                               Rural/
                         Hospital Name                    City       State     Urban

  Stanislaus Surgical Hospital                     Modesto           CA        Urban
  Sutter Amador Hospital                           Jackson           CA        Rural
  East Georgia Regional Medical Center             Statesboro        GA        Rural
  Great River Medical Center                       West Burlington   IA        Rural
  St. Lukes Wood River Medical Center              Ketchum           ID        Rural
  Huntington Memorial Hospital                     Huntington        IN        Urban
  Physicians Surgical Specialty Hospital           Houma             LA        Rural
  Upper Chesapeake Medical Center                  Bel Air           MD        Urban
  Portage Health System                            Hancock           MI        Rural
  Bridges Medical Services                         Ada               MN        Rural
  Healtheast Woodwinds Hospital                    Woodbury          MN        Urban
  Doctors Hospital of Springfield                  Springfield       MO        Urban
  Sandhills Regional Medical Center                Hamlet            NC        Rural
  Innovis Hospital                                 Fargo             ND        Rural
  Humbolt Healthcare Inc.                          Humbolt           NE        Rural
  Ogallala Community Hospital                      Ogallala          NE        Rural
  Roosevelt General Hospital                       Portales          NM        Rural
  St. Rose Dominican Hospital-Sienna Campus        Henderson         NV        Urban
  Cottage Grove Community Hospital                 Cottage Grove     OR        Urban
  Spearfish Surgery Center                         Spearfish         SD        Rural
  Skyline Medical Center                           Nashville         TN        Urban
  Christus St. Catherine Hospital                  Katy              TX        Rural
  Methodist Willowbrook Hospital                   Houston           TX        Urban
  The Physicians Center                            Bryon             TX        Rural
  Beaver Valley Hospital                           Beaver            UT        Rural
  Cache Valley Specialty Hospital                  North Logan       UT        Rural
  Rocky Mountain Medical Center                    Salt Lake City    UT        Urban
  Aurora Medical Center                            Two Rivers        WI        Urban
  Southern Bighorn County Hospital                 Basin             WY        Rural




Hospital Closure: 2000                        20                             OEI-04-02-00010
                         ACKNOWLEDGMENTS


This report was prepared under the direction of Jesse J. Flowers, Regional Inspector General for
Evaluation and Inspections in the Atlanta Regional Office and Graham D. Rawsthorn, Assistant
Regional Inspector General. Other principal Office of Evaluation and Inspections staff who contributed
include:

Kevin Lawrence, Project Leader                         Tricia Davis, Program Specialist



Technical Assistance

Linda Moscoe, Program Analyst




Hospital Closure: 2000                            21                                      OEI-04-02-00010
